   HELLFIRE MISSILE SYSTEM REMOTE CONTROL CIRCUIT
  BREAKERS ON THE AH&A APACHE ATTACK HELICOPTER



Report Number 98-101                      APRIL 3, 1998




             Office of the Inspector General
                 Department of Defense
Additional Copies

To obtain additional copies of this evaluation report, contact the Secondary Reports
Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
(703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit the Inspector
General, DOD Home Page at : WWW.DODIG.OSD.MIL..

Suggestions for Future Evaluations

To suggest ideas for or to request future evaluations, contact the Planning and
Coordination Branch of the Analysis, Planning, and Technical Support Directorate at
(703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas and requests can also
be mailed to:

                    OAIG-AUD (ATTN: APTS Audit Suggestions)
                    Inspector General, Department of Defense
                    400 Army Navy Drive (Room 801)
                    Arlington, Virginia 22202-2884

Defense Hotline

To report fraud, waste, or abuse, contact the Defense Hotline by calling
(800) 424-9098; by sending an electronic message to Hotline@DODIG.OSD.MIL; or
by writing the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900. The
identity of each writer and caller is fully protected.




Acronyms

BIT                 Built-in Test
FD/LS               Fault Detection/Location System
I/CU                Indicator/Control Unit
MDHS                McDonnell Douglas Helicopter Systems
RCCB                Remote Control Circuit Breaker
TI                  Texas Instruments, Inc.
                             INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                            ARLINGTON, VIRGINIA 22202




                                                                          April 3, 1998

MEMORANDUM FOR DIRECTOR, DEFENSE LOGISTICS AGENCY
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Evaluation Report on the Hellfire Missile System Remote Control Circuit
         Breakers on the AH-64A Apache Attack Helicopter
         (Report No. 98-101)


        We are providing this evaluation report for your information and use. Because
this report contains no findings or recommendations, no written comments were
required, and none were received. Therefore, we are publishing this report in final
form.

         We appreciate the courtesies extended to the technical assessment staff.
Questions on the evaluation should be directed to Mr. Kenneth H. Stavenjord,
Technical Director, at (703) 604-8952 (DSN 664-8952) or Mr. Jaime A. Bobbio,
Evaluation Project Manager, at (703) 604-8915. See Appendix B for the report
distribution. The evaluation team members are listed inside the back cover.




                                        Robert j. Lieberman
                                     Assistant Inspector General
                                             for Auditing
                       Office of the Inspector General, DOD
Report No. 98-101                                                           April 3, 1998
   (Project No. 7PT-9028)

        Evaluation on the Hellfire Missile System Remote Control
        Circuit Breakers on the AH-64A Apache Attack Helicopter

                                Executive Summary

Introduction. Remote control circuit breakers are trip-free thermal devices that
combine the functions of a conventional circuit breaker and relay into one device. The
remote control circuit breakers are used in the AH-64A Apache Attack Helicopter to
prevent electric current overloads to the Hellfire Missile System. The Office of the
Assistant Inspector General for Auditing performed a technical evaluation of the
breakers based on a Hotline allegation that the breakers were defective in design and
workmanship.

Evaluation Objectives. The evaluation objective was to conduct a technical assessment
to determine the adequacy of the design, quality control, and acceptance of the remote
control circuit breakers. Specifically, we evaluated and tested remote control circuit
breakers for design and quality to ensure that the United States Army Aviation and
Troop Command (now Army Aviation and Missile Command), McDonnell Douglas
Helicopter Systems, and Texas Instruments complied with manufacturing and quality
processes.

Evaluation Results. The allegation was not substantiated. The design, quality control
processes, and operability for the Hellfire Missile remote control circuit breakers on the
AH-64A Apache Attack Helicopters were satisfactory. Most of the circuit breaker
failures were found in the initial 719 units manufactured on the pilot assembly line.
Field test results revealed that the remote control circuit breakers in use were
functioning properly. A lo-year usage history indicated that 380 circuit breakers have
been issued to the field, compared to 4,685 units initially installed. Records and
interviews of the maintenance personnel at various Army installations showed that the
quality of the first 719 breakers manufactured by Texas Instruments on the pilot
assembly line used on the first 144 AH-64A Apache Attack helicopters were
satisfactory and reliable.

Management Comments. Because this report contains no findings or
recommendations, written comments were not required, and no comments were
received. Therefore, we are publishing this report in final form.
Table of Contents
Executive Summary                                                     i


Part I - Evaluation Results
      Evaluation Background
      Evaluation Objectives
      Remote Control Circuit Breakers Quality, Testing, and Design

Part II - Additional Information
      Appendix A. Evaluation Process                                 10
      Appendix B. Report Distribution                                12
Part I - Evaluation Results
Evaluation Background
     On August 15, 1991, the United States Army Aviation Command issued an
     Aviation Safety Action Message (AH-64-91-ASAM-15) to alert military
     installations about miswiring in the missile system remote control circuit
     breakers (RCCBs) and urged a one-time inspection of RCCB wiring.

     In January 1992, subsequent to the above aviation safety action message, six
     RCCBs were found defective at Fort Rucker during an inspection of AH-64A
     Apache Attack Helicopter missile circuitry. Fort Rucker prepared and
     forwarded a Quality Deficiency Report to McDonnell Helicopter System
     (MDHS). An analysis revealed that the Q3 transistor had failed in all six
     RCCBs. The root cause of the specific RCCB failures was not determined.

     In November 1994, the Defense Criminal Investigative Service initiated an
     investigation based on a Hotline allegation that the circuit card assemblies used
     in the RCCBs on the AH&A Apache Attack Helicopter were defective in
     design and workmanship. Defense Contract Management Center engineers
     opened and inspected three RCCBs from the original pilot assembly line and
     found workmanship defects. In January 1997, the allegation was referred by
     the Defense Criminal Investigative Service to the Office of the Assistant
     Inspector General for Auditing for a technical evaluation.



Evaluation Objectives
     The primary objective was to conduct a technical evaluation to determine the
     adequacy of the design, quality control, and acceptance of the remote control
     circuit breakers. Specifically, we evaluated and tested RCCBs for design and
     quality to ensure that U.S. Army Aviation and Troop Command (now Army
     Aviation and Missile Command), McDonnell Helicopter System (MDHS), and
     Texas Instruments, Inc. (TI) complied with manufacturing and quality
     processes.




                                          2
            Remote Control Circuit Breakers
            Quality, Testing, and Design
            The design, quality, and workmanship of the remote control circuit
            breakers are satisfactory. Field tests verified that all the RCCBs on four
            Apache Attack Helicopters inspected were operating properly. Also,
            records showed that only about 1 percent of RCCBs system-wide have
            been issued to the field over the last 10 years.



Quality
     Texas Instruments, Inc. (TI), Attleboro, MA designed and developed 1ORC
     RCCB as a commercial circuit breaker for wide industry use. In 1984, TI
     began shipping 1ORC RCCBs for Apache helicopters to Hughes Helicopter Co.
     (now McDonnell Douglas Helicopter Systems [MDHS]). Per company policy,
     production and shipping records are maintained for 7 years minimum.
     However, TI provided the 1l-year record of 4,272 units delivered to MDHS.

     There were no TI RCCB shipment records for 1984 or 1985. Officials at TI
     stated that they inspected and tested 100 percent of all RCCB shipments to
     MDHS and provided a certificate of conformance with each batch of the
     devices. As of April 1997, approximately 54 RCCB failures have been reported
     to TI. Most of the 54 failures occurred in the initial 719 RCCBs built by TI on
     the pilot assembly line. Our evaluation focused on those initial 719 RCCBs that
     were used in the first 144 Apache helicopters manufactured by MDHS. Each
     Apache helicopter Hellfire Missile System uses five RCCBs.

     The initial 719 units that were produced on the pilot assembly line were no
     different from the production (post 719 units) except that the former used TI
     built electronics modules while the latter used electronics modules purchased
     from various vendors.

     Analysis by TI of the RCCBs returned by MDHS revealed deficiencies in the
     following categories: bias spring adjustment, shorted diodes, 43 transistor
     breakdown, misassembled tantalum capacitor, and applications issues that
     included broken studs, damaged connector modules, Desert Storm sand
     ingestion, and product understanding.
              Remote Control Circuit Breakers Quality, Testing, and Design


Deficiency explanations and corrective actions by TI are as follows:

          43 transistor breakdown. MDHS returned six RCCBs to TI in
          December 1991. The failure caused solenoid burnout resulting in
          subsequent loss of the device function. Another device failure was
          reported in 1992, but TI testing showed no device or component
          damage to the 43 during normal device operation. TI did not
          determine the root cause of these failures. However, TI replaced all
          the failed units with new RCCBs.

          Shorted blocking diodes. MDHS returned five devices in 1990 for
          shorted blocking diodes. The TI diode supplier analyzed and
          determined the cause of failure as arc-over the diode. The cause of
          the reverse voltage overstress in the diodes could not be determined.
          However, TI self-initiated a post-production test of the diode to
          ensure that it was functioning properly.

          Misassembled capacitor. In 1991, MDHS returned one RCCB
          because of failure to reset. TI analysis determined that the tantalum
          capacitor on the hybrid circuit had been assembled backwards by the
          supplier. The supplier instituted a double inspection process to insure
          that future capacitors are orientated correctly. Additionally, TI
          instituted a 100 percent x-ray inspection of the capacitors.

          Bias Spring. In 1984 and 1985, TI initiated a recall of all initial
          production devices to adjust the bias spring to minus 65 degrees
          Fahrenheit to improve the trip characteristics of the 1ORC RCCB.
          The devices were readjusted and returned to MDHS.

On March 1, 1992, after six defective RCCBs were discovered at Fort Rucker,
MDHS started testing RCCBs as part of their Point Target Weapon Subsystem
(Hellfire Missile) testing. However, by July 22, 1991, MDHS had already built
and sold 849 Apache Helicopters (equipped with 4,245 RCCBs) to the United
States Army that were not included in the MDHS Point Target Weapon
Subsystem testing.

Army policy for the past several years is to keep maintenance records for only
6 months. We reviewed maintenance records of 68 helicopters stationed at Fort
Eustis, Fort Rucker, Fort Hood, and Corpus Christi Army Depot. We found
11 to 15 RCCBs had been replaced. Our discussions with Army and contractor
maintenance personnel revealed only one RCCB was replaced at Fort Eustis and
four at Fort Rucker during the past 2 years. Fort Hood maintenance personnel
recalled that they replaced approximately 6 to 10 RCCBs during the past
11 years. Corpus Christi Army Depot did not keep records of the RCCB
replacements because they are throwaway (expendable) items.




                                    4
                   Remote Control Circuit Breakers Quality, Testing, and Design


     We concluded the quality of the RCCB was satisfactory. TI stated that they
     inspected RCCBs at each stage of the assembly operation and had only received
     approximately 54 defective RCCBs out of 4,710 manufactured by TI. The
     Defense Supply Center Columbus item manager reported on 380 units ordered
     over the last 10 years. This amounts to approximately a l-percent usage rate.
     Army Apache helicopter stations reported only six Quality Deficiency Reports
     related to RCCBs failures. Maintenance records confirmed a very low RCCB
     usage rate. Many RCCBs produced on the pilot line were still operational. We
     visited four military facilities and found 68 Apache helicopters containing
     340 RCCBs with 84 RCCBs from the pilot production of 1984 and 1985 still in
     operation. In addition, we opened and inspected a RCCB removed from an
     operational helicopter, RCCB serial number 419 from the original pilot
     assembly line, and found no workmanship defects.

     Thus, on the basis of our review of records and interviews of maintenance
     personnel at the four Army installations and TI, we conclude that the quality of
     the first 719 RCCBs manufactured by TI on the pilot line was sound. The
     RCCBs are still providing highly reliable performance in the field.



Testing
     Texas Instruments officials stated that the RCCBs are tested and inspected at
     each stage of pilot line assembly and they provided a certificate of conformance
     with each shipment sent to MDHS. After integration of the Hellfire Missile
     System with the Apache helicopter, MDHS performed a missile subsystem test
     of all five RCCBs on each helicopter using test set AN/TSN-205. We observed
     and verified TI testing on the current RCCB production line.

    Additionally, the Apache helicopter/Hellfire Missile System is equipped with a
    set of built-in tests (BITS) for fault detection and location system (FDKS) in the
    missile subsystem electric circuitry at individual missile pylon. A missile
    warning light on the cockpit panel blinks only if all four missile stations fail.
    Fault isolation up to pylon/station level can be detected by reading information
    displayed on the screen located in the cockpit. However, this test would not
    identify individual RCCB failure. Therefore, a BIT to check the circuit
    continuity in an individual RCCB is also performed in the helicopter cockpit.
    There are five pop-up switches, and a circuit breaker indicator/control unit
    (KU), one for each RCCB located on the left-hand side of the cockpit. If
    there is failure in an individual pylon/station circuitry including the RCCB, the
    pop-up switch would open and the display screen would indicate a failure in the
    circuit. When there is no fault in the RCCB circuit, the pop-up switch remains
    in the down (closed) position. When there in no anomaly in the circuit, the
    pop-up switch opens or closes the RCCB as designed. These BIT tests are
    performed before a mission begins.




                                        5
                  Remote Control Circuit Breakers Quality, Testing, and Design


    Most of the Apache helicopter field maintenance units are trained to use
    ANITSN-205, Hellfire Guidance Test Set. This test set is capable of detecting
    and isolating faults to the lower replaceable units of the Hellfire missile circuit
    including the RCCBs.

    We participated in the FD/LS and RCCB pop-up switch BITS at Fort Eustis,
    Fort Rucker, and Fort Hood and verified that all the RCCBs on the four test
    helicopters inspected were operational. Nine of the RCCBs we tested were
    from the pilot assembly line.



Design
    Remote control circuit breakers are trip-free thermal devices which combine the
    functions of a conventional circuit breaker and relay into one device. These
    devices can be employed as circuit breakers that can be mounted adjacent to the
    load, the power source, or even the flight deck. The RCCBs will open
    automatically on electric current overloads up to and including short circuit
    conditions within the operating specifications of the device. The circuit
    breakers provide thermal/mechanical circuit interruption in the event of an
    electric current overload. An ancillary thermal-mechanical 0.5 ampere circuit
    breaker I/CU (located remotely from the RCCB) controls the main contacts in
    the RCCB. The I/CU also provides a method for manually opening/closing the
    RCCB under normal operating conditions.

    An AH&A Apache Attack Helicopter contains four RCCBs on the aircraft
    wings and one behind the pilot seat. A 20-ampere RCCB (behind the pilot seat)
    is used in the electrical power center which controls armed power for the
    Hellfire launcher. Two 25ampere RCCBs are located in each aircraft wing just
    above each pylon station.

    We reviewed TI RCCB schematics (No. 36713-1) and conducted a detailed
    circuit analysis of the RCCB operation. We observed and verified TI testing of
    RCCB design and circuitry against the performance characteristics such as
    voltage, current rating, auxiliary switch, endurance (50,000 cycles), voltage
    drop, etc. On the basis of our review of the design and test of the RCCBs, we
    concluded that the RCCB design is sound. Additionally, we observed that
    despite the fact that the Apache helicopters have been exposed to all kinds of
    environmental conditions, no significant number of RCCB failures caused by
    quality or operational performance have been reported.



Summary
    The allegation was not substantiated. The quality of the first 719 RCCBs
    manufactured by Texas Instruments on the pilot line was sound. Our records
    showed that only about 1 percent of RCCBs system-wide have been issued to
    the field over the last 10 years. Our field test fault detection and location

                                          6
              Remote Control Circuit Breakers Quality, Testing, and Design


system in the missile subsystem electric circuitry and RCCB pop-up switch BITS
at various Army facilities verified that all the RCCBs on the four test helicopters
inspected were operational. Our open inspection of an RCCB from the original
pilot assembly line was found with no workmanship defects.

Although 719 RCCBs were manufactured on the pilot assembly line
approximately 15 years ago, a number of those devices are still functioning well
in the field. Thus, we conclude that the design, quality, test, and operability of
the RCCBs produced on the pilot assembly line and used on the AH-64A
Apache Attack Helicopter Hellfire Missile System are adequate.
Part II - Additional Information
Appendix A. Evaluation Process


Scope
    We conducted this technical assessment from February 1997 through September
    1997 in accordance with standards implemented by the Inspector General, DOD.
    We reviewed data and tested remote control circuit breakers on the AI-I&A
    Apache Attack Helicopter.



Methodology
    Our review focused on identifying design, test, operability, and quality
    assurance processes of the remote control circuit breakers. We developed
    specific plans for evaluating the implementation and acceptability of the remote
    control circuit breaker process. We reviewed the remote control circuit
    breakers functions and operations, procurements, field failures, quality
    assurance process, serial numbers, and date codes. Technical assessment
    engineers conducted inspection and pop-up switch testing of remote control
    circuit breakers on Apache helicopters at Fort Eustis, Fort Rucker, Fort Hood,
    and Corpus Christi. We did not rely on computer-processed data or statistical
    sampling procedures to develop conclusions on this evaluation.



Management Control Program
    DOD Directive 5010.38, “Management Control Program,” August 26, 1996,
    requires DOD organizations to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are
    operating as intended and requires the organizations to evaluate the adequacy of
    their controls.

         Scope of Review of the Management Control Program. We reviewed the
    adequacy of management controls relating to manufacturing, quality control,
    testing, and acceptance process to ensure that RCCBs confirm to the acceptable
    final assembly processes.

       Adequacy of Management Controls. Management controls utilized to
    ensure that the manufacturing, quality control, testing, and acceptance of the
    RCCBs were adequate. We identified no material management control
    weaknesses.




                                        10
                                               Appendix A. Evaluation    Process



Contacts During the Evaluation
    We visited or contacted individuals and organizations within the DOD and
    within McDonnell Douglas Helicopter Systems and Texas Instruments, Inc.
    Further details are available upon request.




                                      11
Appendix B. Report Distribution


Offke of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
  Deputy Under Secretary of Defense (Acquisition Reform)
  Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
Assistant Secretary of Defense (Public Affairs)


Department of the Army
Auditor General, Department of the Army


Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)


Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)


Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Director, Defense Security Assistance Agency
Director, Defense Technology Security Assistance Administration
Inspector General, Defense Intelligence Agency




                                          12
                                                    Appendix B. Report Distribution



Non-Defense Federal Organizations and Individuals
Office of Management and Budget
Technical Information Center, National Security and International Affairs Division,
   General Accounting Office

Chairman and ranking minority member of each of the following congressional
  committees and subcommittees:

* Senate Committee on Appropriations
  Senate Subcommittee on Defense, Committee on Appropriations
  Senate Committee on Armed Services
  Senate Committee on Governmental Affairs
  House Committee on Appropriations
  House Subcommittee on National Security, Committee on Appropriations
  House Committee on Government Reform and Oversight
  House Subcommittee on Government Management, Information, and Technology,
     Committee on Government Reform and Oversight
  House Subcommittee on National Security, International Affairs, and Criminal
    Justice, Committee on Government Reform and Oversight
  House Committee on National Security




                                           13
Evaluation Team Members

The Analysis, Planning and Technical Support Directorate, Office of the
Assistant Inspector General for Auditing, DOD, produced this report.

Michael G. Huston
Kenneth H. Stavenjord
Jaime A. Bobbio
Chandra Sankhla
Wei Kuo Chang
Phyllis Inscoe
